      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




December 29, 2010

TO:            Yvette Roubideaux, M.D., M.P.H.
               Director
               Indian Health Service


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Audit of the Indian Health Service’s Internal Controls Over Monitoring of
               Recipients’ Compliance With Requirements of the Loan Repayment Program
               (A-09-10-01005)


The attached final report provides the results of our review of the Indian Health Service’s
internal controls over monitoring of recipients’ compliance with certain requirements of the Loan
Repayment Program.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-09-10-01005 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   AUDIT OF THE INDIAN HEALTH
SERVICE’S INTERNAL CONTROLS OVER
    MONITORING OF RECIPIENTS’
COMPLIANCE WITH REQUIREMENTS OF
  THE LOAN REPAYMENT PROGRAM




                        Daniel R. Levinson
                         Inspector General

                          December 2010
                          A-09-10-01005
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 700 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

Section 108 of the Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as
amended, requires IHS to administer the Loan Repayment Program. The purpose of the Loan
Repayment Program is to ensure an adequate supply of trained health professionals to provide
health care services to American Indians and Alaska Natives through Indian health programs.
Under the program, IHS is authorized to pay directly to the recipient of a loan repayment award
the principal, interest, and related expenses on government and commercial loans obtained for an
education in the health professions. IHS awarded to recipients $38.5 million for loan repayments
during the Federal fiscal years ended September 30, 2007, and September 30, 2008.

The Indian Health Manual states that IHS is responsible for ensuring that recipients properly
complete their applications for loan repayment funds. IHS Loan Repayment Program
Procedures instruct IHS staff to verify that each application has documentation indicating that
the recipient is employed at an IHS-approved site.

Pursuant to sections 108(e) and (f) of the IHCIA, the recipient must sign a contract with IHS in
which he or she agrees to fulfill a required service obligation at an IHS-approved site in return
for funds to pay health profession education loans. Section 108(f)(1)(B)(iii) of the IHCIA
requires the recipient to work a minimum of 2 years. According to the Indian Health Manual,
IHS is responsible for monitoring recipients to ensure that they are in compliance with section
108 of the IHCIA and the contract with IHS. A recipient who fails to begin or complete the
required service obligation must repay the Federal Government according to a formula described
in section 108(l)(2) of the IHCIA.

The Federal Managers’ Financial Integrity Act of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget Circular
A-123 states that Federal agency management is responsible for establishing and maintaining
internal control activities to meet the objectives of effective and efficient operations and
compliance with applicable laws and regulations.

OBJECTIVE

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of the Loan Repayment Program.




                                                i
SUMMARY OF FINDINGS

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of the Loan Repayment Program. Specifically, IHS did not always follow its
policies and procedures to verify that recipients were employed at IHS-approved sites before
awarding loan repayment funds and that recipients fulfilled their required service obligations. As
a result, IHS could not ensure that all recipients were in compliance with Loan Repayment
Program requirements.

RECOMMENDATION

We recommend that IHS follow its policies and procedures to verify that recipients are employed
before awarding loan repayment funds and that recipients fulfill their required service
obligations.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it planned to take to address
the recommendation. IHS’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Indian Health Service ...............................................................................................1
              Loan Repayment Program .......................................................................................1
              Loan Repayment Program Requirements for Recipients.........................................2
              Federal Requirements for Internal Controls ............................................................2
              Office of Inspector General Reviews ......................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................3
               Objective ..................................................................................................................3
               Scope ........................................................................................................................3
               Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATION...................................................................................4

          FEDERAL REQUIREMENTS ............................................................................................4

          VERIFICATION OF EMPLOYMENT BEFORE AWARDING OF LOAN
           REPAYMENT FUNDS ....................................................................................................4

          VERIFICATION OF FULFILLMENT OF SERVICE OBLIGATIONS ...........................5

          RECOMMENDATION .......................................................................................................5

          INDIAN HEALTH SERVICE COMMENTS .....................................................................5

APPENDIX

          INDIAN HEALTH SERVICE COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 700 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

The Indian Health Care Improvement Act (IHCIA) of 1976 (P.L. No. 94-437), as amended,
authorizes IHS funding to administer programs that are designed to attract and recruit qualified
individuals into health professions needed at IHS facilities. These programs are intended to
encourage American Indians and Alaska Natives to enter health professions and to ensure the
availability of Indian health professionals to serve Indians.

Loan Repayment Program

Section 108 of the IHCIA, as amended, requires IHS to administer the Loan Repayment
Program. 1 The purpose of the Loan Repayment Program is to ensure an adequate supply of
trained health professionals to provide health care services to American Indians and Alaska
Natives through Indian health programs.

Under the Loan Repayment Program, IHS is authorized to pay directly to the recipient of a loan
repayment award the principal, interest, and related expenses on government and commercial
loans obtained for an education in the health professions. Initial loan repayment awards require
an award recipient to agree to a 2-year service obligation with an Indian health program as
defined in section 108 of the IHCIA. According to the Indian Health Service Loan Repayment
Program Information and Applicant Booklet (the Booklet), additional loan repayment awards
(extensions) are available to each eligible recipient for a 1-year period and are not to exceed the
recipient’s eligible health profession education loan amounts.

IHS may award each recipient up to $20,000 a year for each year of obligated service. 2 IHS also
pays the Internal Revenue Service on the recipient’s behalf 20 percent of the award amount to
offset the Federal tax liability incurred by the recipient. IHS awarded to recipients $38.5 million
for loan repayments during the FYs ended September 30, 2007, and September 30, 2008.


1
 The Indian Health Care Amendments of 1988 (P.L. No. 100-713) added the IHS Loan Repayment Program under
section 108 of the IHCIA.
2
  P.L. No. 100-713 authorized the payment of up to $25,000 per year for each recipient. P.L. No. 102-573 increased
the amount to $35,000 per year. However, as of Federal fiscal year (FY) 2000, IHS limited each award to $20,000
per year to maximize the number of awards that could be given to recipients. IHS reduces each award by
7.65 percent for the recipient’s share of the Federal Insurance Contribution Act tax and submits this amount to the
Social Security Administration.


                                                         1
Loan Repayment Program Requirements for Recipients

The Indian Health Manual 3 (the Manual), part 5, section 20.14E., assigns responsibility within
IHS for ensuring that recipients properly complete their applications for loan repayment funds.
IHS Loan Repayment Program Procedures instruct IHS staff to verify that each application has
documentation indicating that the recipient is employed at an Indian health program site
approved by IHS. “Indian health program” is defined in section 108 of the IHCIA as a health
program or facility administered by IHS, an Indian tribe or tribal organization pursuant to a
contract under the Indian Self-Determination Act (P.L. No. 93-638) or the Buy Indian Act
(25 U.S.C. § 47), or an urban Indian organization pursuant to Title V of the IHCIA.

Pursuant to sections 108(e) and (f) of the IHCIA, a recipient of a Loan Repayment Program
award must sign a contract with IHS in which he or she agrees to fulfill a required service
obligation at an IHS-approved site in return for funds to pay health profession education loans. 4
Section 108(f)(1)(B)(iii) of the IHCIA requires the recipient to work a minimum of 2 years.

Section 108(l)(2) of the IHCIA requires that a recipient who fails to begin or complete the
required service obligation repay the Federal Government an amount equal to three times the
funds received, plus interest, reduced by the percentage of the service obligation that was
fulfilled. However, pursuant to section 108(m)(1) of the IHCIA, any service or payment
obligation is canceled upon the recipient’s death. In addition, section 108(m)(2) authorizes IHS
to waive or suspend any service or payment obligation when compliance by the recipient with
the contract becomes impossible or involves extreme hardship and when enforcement of the
obligation would be unconscionable.

Federal Requirements for Internal Controls

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (P.L. No. 97-255) requires each
executive agency to develop internal controls in accordance with standards prescribed by the
Comptroller General and to provide reasonable assurance that funds are safeguarded against
waste, unauthorized use, or misappropriation. The Office of Management and Budget (OMB)
Circular A-123 provides guidance on implementation of the FMFIA and further defines
management’s responsibility for internal controls in Federal agencies.

Office of Inspector General Reviews

We reviewed IHS’s internal controls for monitoring recipients’ compliance with certain
requirements of the Loan Repayment Program. Separate reports will address IHS’s internal
controls for monitoring recipients’ compliance with certain requirements of IHS’s scholarship
programs, including the Indian Health Professions Scholarship program (A-09-09-00044),

3
  The Indian Health Manual is the reference for IHS employees regarding IHS-specific policy and procedural
instructions.
4
 Indian health program sites are assigned a score and ranked by IHS based on the need for or vacancy in a specific
health profession. Recipients at priority sites are funded first.



                                                         2
Nursing Program (A-09-10-01006), and American Indians Into Psychology Program
(A-09-10-01007).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IHS had adequate internal controls to monitor
recipients’ compliance with certain requirements of the Loan Repayment Program.

Scope

We reviewed IHS’s internal controls over its monitoring of recipients’ compliance with certain
requirements of the Loan Repayment Program. We limited our review of internal controls to
those controls for awarding loan repayment funds and monitoring recipients’ fulfillment of
required service obligations.

We limited our review to the documentation that IHS maintained for each recipient. We did not
determine whether recipients’ education loans qualified as health profession education loans
under the Loan Repayment Program.

We conducted our audit from February 2009 to January 2010 and performed fieldwork at IHS
Headquarters in Rockville, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed IHS officials to obtain an understanding of the recipient requirements of the
        Loan Repayment Program;

   •    reviewed IHS’s policies and procedures for monitoring recipients’ compliance with Loan
        Repayment Program requirements;

   •    obtained an understanding of the IHS data systems used to monitor recipients’ fulfillment
        of required service obligations;

   •    selected a judgmental sample of 30 recipients of Loan Repayment Program funding
        awarded in FYs 2007 and 2008; and

   •    reviewed IHS’s hardcopy and electronic documentation and interviewed IHS officials to
        verify whether IHS (1) ensured that the sampled recipients were employed at
        IHS-approved sites before awarding loan repayment funds and (2) monitored the sampled
        recipients’ fulfillment of service obligations.


                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                  FINDINGS AND RECOMMENDATION

IHS did not have adequate internal controls to monitor recipients’ compliance with certain
requirements of the Loan Repayment Program. Specifically, IHS did not always follow its
policies and procedures to verify that recipients were employed at IHS-approved sites before
awarding loan repayment funds and that recipients fulfilled their required service obligations. As
a result, IHS could not ensure that all recipients were in compliance with Loan Repayment
Program requirements.

FEDERAL REQUIREMENTS

The FMFIA, section 2(d)(1)(A), states: “… [I]nternal accounting and administrative controls of
each executive agency shall be established in accordance with standards prescribed by the
Comptroller General, and shall provide reasonable assurances that … (ii) funds, property, and
other assets are safeguarded against waste, loss, unauthorized use, or misappropriation ….”

OMB Circular A-123, section II, states: “Internal control is an integral component of an
organization’s management that provides reasonable assurance that the following objectives are
being achieved: effectiveness and efficiency of operations … and compliance with applicable
laws and regulations.” Section II also states: “Management is responsible for developing and
maintaining internal control activities ... to meet the above objectives.” Section III.A. states:
“… [Management] should design management structures that help ensure accountability for
results. As part of this process, agencies and individual Federal managers must take systematic
and proactive measures to develop and implement appropriate, cost-effective internal control.”

VERIFICATION OF EMPLOYMENT BEFORE AWARDING OF LOAN REPAYMENT
FUNDS

IHS is responsible for ensuring that recipients properly complete their applications for loan
repayment funds. This responsibility is reflected in part 5, section 20.14E. of the Manual. 5 A
complete application is to include, among other things, evidence of employment at an
IHS-approved site. Examples of acceptable evidence include a civil service personnel action
form, U.S. Public Health Service Commissioned Corps personnel orders, or a letter of hire from
a tribal organization. Section 20.14E. of the Manual states that IHS sends a letter of
acknowledgment informing the recipient of the completeness of the application or of the items
that need to be submitted to complete the application.

IHS’s Loan Repayment Program Procedures, procedure 3.05, introduced in October 2008,
instructs IHS staff to review the recipient’s application and attachments for completeness.
5
    Section 20.14C. of the Manual refers to the Booklet for items needed for a complete application.


                                                            4
Further, procedure 3.04, also introduced in October 2008, instructs IHS staff to review a
recipient’s application for an extension of an existing contract. IHS staff are to verify that the
application contains evidence that the recipient is still employed at an IHS-approved site before
awarding the recipient additional funds. Both procedures require IHS to follow up with the
recipient on items in the application that IHS determined to be incomplete.

Of the 30 recipients we selected for review, IHS did not verify that 7 recipients were employed
before awarding loan repayment funds. IHS’s documentation related to the seven recipients did
not contain any evidence demonstrating that the recipients were employed, indicating that IHS
staff had not reviewed the applications and attachments for completeness. We interviewed the
IHS loan repayment analysts responsible for reviewing the applications of the seven recipients
and confirmed that IHS did not follow up with the recipients to obtain the missing
documentation and that employment of the seven recipients had not been verified.

VERIFICATION OF FULFILLMENT OF SERVICE OBLIGATIONS

IHS is responsible for monitoring recipients to ensure that they are in compliance with section
108 of the IHCIA and the contract with IHS, both of which require recipients to fulfill service
obligations. This responsibility is reflected in part 5, sections 20.13 and 20.14, of the Manual.
IHS’s Loan Repayment Program Procedures, procedure 3.09, instructs IHS staff to review
quarterly the files of recipients who, based on their contract dates, should have already
completed their service obligations. IHS staff are also required to check the recipient’s length
and location of service and verify that the service obligation has been completed.

Of the 30 recipients we selected for review, IHS did not verify that 21 recipients (including the
7 recipients discussed above) had fulfilled their service obligations at the approved worksites.
IHS’s documentation related to the 21 recipients did not contain any evidence demonstrating that
the recipients had fulfilled their service obligations, indicating that IHS staff had not monitored
recipients’ compliance with the service obligation requirement. We interviewed the IHS loan
repayment analysts responsible for reviewing the files of the 21 recipients and confirmed that
fulfillment of the service obligations had not been verified. During the interviews, one IHS
analyst stated that she had started to perform the procedures quarterly but stopped because of an
increased workload. Four other analysts stated that they had never performed the procedures.

RECOMMENDATION

We recommend that IHS follow its policies and procedures to verify that recipients are employed
before awarding loan repayment funds and that recipients fulfill their required service
obligations.

INDIAN HEALTH SERVICE COMMENTS

IHS concurred with our recommendation and described actions that it planned to take to address
the recommendation. IHS’s comments are included in their entirety as the Appendix.




                                                 5
APPENDIX
            APPENDIX: INDIAN HEALTH SERVICE COMMENTS 



     DEPART'' '\ENT 0 1' HEALTH &. HU""tAN SERVICES 	                            Public Health Service


                                                                                 Ind ian Health Service
                                                                                 Rockville MD 20852

                                        SEP 17 2010

TO: 	              Inspector General

FROM: 	            Director

SUBJECT: 	         Response to the Of11ce of Inspector General '-Audit of the Indian Health Service's
                   Internal Controls over Monitoring of Recipients" Compliance With Requircment~
                   orthe Loan Repayment Program (A·09-IO-OI005)"


The purpose orlhis memorandum is 10 re;;poml to your July 28,2010, memorandum transmitti ng
the results of the Office of Inspector General (O[G) draft report "Audit of the Indian I-il;alth
Service's Imernal Controls over Monitoring of Recipienls' Compli ance With Requirements of
the Loan Rep-Wmen! Progr'dffi (A-09-10-Ol005)."

OIG Recommendation:

We recommend IhallHSjollow its policies and procedures to verify that recipient,l' are employed
before awarding Ivan repayment fimds and that recipients fulfill their required service
obligations.

I HI';   Rc~po n sc:


The Indian I'kallh Service ( IHS) concurs with this recommendation. To en~ure loan repayment
funds arc awarded only to those who are employed at IHS·approved sites, the Agency will:

•	         require that employment verification, as described in the II IS LOlm Repayment Program
           (lHSLRP) policies and procedures manual the IllS Loan Repaymcm Program,
           accompanies the recipient's contract for approval by the delegate of the Secretary,
           Depanmcnt Ilealth and Human Services (HHS).

•	         require current employment verification, as described in the ItlS l.oan Repayment
           Program, be approved by the Chief, IHSLRP, prior to disbursing the second annual
           payment.

'1'0 ensure loan repayment recipients fulfill their obligations to illS, the Agency will:

•	         reque8t verification of employment from a ll Tribal and Urban recipients no laler than
           15 business days before their cOntract end date.
                                                                                                 Page 2 of2




Page 2 - Inspector General


•	     verify employment of all United States Public Health Service Commissioned Corps
       Officers and civil service recipients' by accessing their employment service records in
       HHS databases within 15 business days of their contract end date.

Thank you for the opportunity to respond to your July 28, 2010 memorandum. If you have any
questions concerning this response, please contact CDR Michael D. Weahkee, Director of the
Management Policy and Internal Control Staff in the Office of Management Services, IHS, at
(301) 443-2650.




                                                Yvette Roubideaux, M.D., M.P.H.
